OIG Investigative Reports, Woman Charged with Submitting False Financial Aid Application
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
August 15, 2006
U.S. Department of Justice
United States Attorney
Western District of Pennsylvania
United States Post Office & Courthouse
700 Grant Street, Suite 4000
Pittsburgh, PA 15219
Phone: 412-644-3500
Fax: 412-644-4549
Woman Charged with Submitting False Financial Aid Application
United States Attorney Mary Beth Buchanan announced today, August 15, 2006,
that Jessie Anderson of Punxsutawney, Pennsylvania, has been indicted by a federal
grand jury in Pittsburgh on a charge of Fraudulently Obtaining Department of
Education Funds.
The one-count indictment named Anderson, age 48, as the sole defendant.
According to the indictment, between March, 2004 and December, 2004, Anderson
obtained federal higher education assistance funds by falsely representing her
total available income and assets on a Free Application for Federal Student
Aid submitted to the United States Department of Education.
Assistant United States Attorney Dennis P. Kissane, who presented the case
to the grand jury, indicated that the law provides for a maximum total sentence
of up to 5 years in prison, a fine of up to $250,000, or both.
Under the Federal Sentencing Guidelines, the actual sentence imposed would
be based upon the seriousness of the offense and the prior criminal history,
if any, of the defendant.
Special Agent Bruce Lance of the United States Department of Education, Office
of Inspector General, conducted the investigation leading to the indictment
in this case.
An indictment is only a charge and is not evidence of guilt. A defendant is
presumed innocent and is entitled to a fair trial at which the government must
prove guilt beyond a reasonable doubt.
Printable view
Share this page
Last Modified: 09/08/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov